6/19/2020

Open an Account
Careers

Visa® Signature Rewards | CommonWealth One Federal Credit Union

Apply for a Loan

Find an ATM or Branch

Contact Us



Online Banking Login

Routing Number: 256078365

CONNECT

BORROW

MANAGE & SAVE

GROW & LEARN

COVID-19 Update: Click here for information regarding our hours of operation, relief programs or to schedule an appointment.

VISA® SIGNATURE REWARDS
OPEN AN ACCOUNT
APPLY FOR A LOAN

Visa® Signature Rewards Credit
Card
Get a CommonWealth One Visa Signature Rewards Credit Card and enjoy
the purchasing power you deserve.

Visa Credit Cards
View Visa Credit Card
Rates
Credit Card Pay O
Calculator
How Much Debt Do You
Owe Calculator
Veri ed By Visa®
CardValet and Visa Alerts
Can Help You Keep Your
Information Secure.

Home Equity Loans

Enjoy a variable rate as low as of 9.99% APR* on purchases, cash
advances and balance transfers. Our Signature Rewards credit card also
gives you instant access to dozens of everyday perks, once-in-a-lifetime
experiences, ne wine and food events, and complimentary 24-hour
concierge service. As a new Visa Signature Rewards cardholder, you'll enjoy the following bene ts:
Low variable rates as low as 9.99% APR* on purchases, cash advances, and balance transfers
Get 10,000 bonus rewards points when you spend $1,500 in retail purchases within the rst 90
days of opening your account†
Earn 2 rewards points for every dollar spent on all purchases, which may be redeemed for cash,
travel, merchandise or gift cards
No annual fee, no cash advance and no balance transfer fees
No foreign transaction fees

Mortgage Loans
Personal Loans
Other Loans
Loan Rates
Loan Calculators
Visa Business Credit
Cards
Auto Loan Rates
Credit Card Rates

Convenience Services
Transfer balances to your current purchase rate with no fees in Online Banking or call (866) 8205871
Pay your credit card bill using your CommonWealth One or other bank account
Redeem your points at CURewards.com
Sign up for e-statements

Visa® Signature Rewards Perks
Shopping
As a CommonWealth One Visa Signature Rewards cardholder, shop and save with discounts at top
retailers including jewelry, apparel, electronics and more. For current o ers, log into Online Branch and
click on your Visa credit card to access your Signature CUReward o ers.

Visa Concierge Services
Save time and make your life easier with Visa Signature’s complimentary concierge service. Just call
anytime, 24 hours a day. Your concierge service can help you nd tickets to the top sports and
entertainment events, book travel, make dinner reservations and even help you nd the perfect gift. To
use this service, call (800) 953-7392 or visit visasignatureconcierge.com. For calls outside the United
States, call us collect at (630) 350-4551.

Travel
Enjoy exclusive bene ts when you travel and use Visa Signature Luxury Hotel Collection with access to
over 800 of the world’s most intriguing and prestigious properties. Receive the best available rate, free
in-room internet and more when you book through the Visa Signature Luxury Hotel Collection.

https://www.cofcu.org/borrow/visa-credit-cards/visa-signature-rewards-credit-card

1/3

6/19/2020

Visa® Signature Rewards | CommonWealth One Federal Credit Union

Sports
Use Visa Signature Concierge assistance to get access to once-in-a-lifetime events, high pro le games or
even to reserve a golf tee time. Call Visa Signature Concierge at 800-953-7392 or click here to learn
more.

Retail Protection
Cell Phone Protection1
Price Protection1
Premium Purchase Security1
Return Protection1
Warranty Manager Service1
Personal Identity Theft1

Global Assistance Services
Cardholder Inquiry Service
Emergency Card Replacement/Emergency Cash Disbursement
Lost/Stolen Card Reporting

Travel Bene ts
Auto Rental Collision Damage Waiver1
CLEAR Expedited Airport Security Line Service1
Emergency Evacuation and Transportation Coverage1
Emergency Medical/Dental Bene t1
Hotel Theft Protection1
Lost Luggage Reimbursement1
Roadside Dispatch®
Travel Accident Insurance up to $250,0001
Travel and Emergency Assistance Services1
Trip Cancellation/Trip Interruption1
Trip Delay Reimbursement1
Disclosures

*Annual Percentage Rate (APR) is currently 9.99% -18.00%, as of April 1. Rate is determined based on the applicant(s) creditworthiness
and will vary with the market based on the Prime Rate.
†The

Visa Signature Credit Card 10,000 bonus rewards points offer applies to new cardholders only. New cardholders will receive 10,000

bonus reward points when they make $1,500 in purchases within first 90 days of account opening. Balance transfers and cash advances
do not apply.
1

Certain terms, conditions, and exclusions apply. In order for coverage to apply you must use your covered Visa card to secure

transactions. Please refer to your Guide to Benefits for further details.

View Visa Signature Rewards Credit Card Agreement and Disclosure
Visa Rates, Fees, and Cost Information
Visa Signature Guide to Benefits
Visa Platinum Rewards and Platinum Guide to Benefits
Visa Business Platinum Rewards Guide to Benefits

Connect

Online Banking
Bill Pay
Mobile Apps
Mobile MyDeposit
PopMoney
E-Statements
Money Tools
Text Banking and Mobile Web Banking

Borrow

Loan Perks
New and Used Auto Loans
Visa Credit Cards
Home Equity Loans
Mortgage Loans
Personal Loans
Student Loans
Other Loans

https://www.cofcu.org/borrow/visa-credit-cards/visa-signature-rewards-credit-card

Manage & Save

Checking Accounts
Savings Accounts
Money Management Accounts
Share Certi cates
Investment Services
Insurance Programs
Business Services

Grow & Learn

About CommonWealth One
Membership
College Student Services
Youth Programs
Scholarships
Financial and Education Resources
Contact Us
Find a Branch or ATM
Careers
2/3

6/19/2020

Visa® Signature Rewards | CommonWealth One Federal Credit Union

© 2020, CommonWealth One Federal Credit Union. All Rights Reserved.
Privacy Policy | Disclosures | Website Accessibility

https://www.cofcu.org/borrow/visa-credit-cards/visa-signature-rewards-credit-card

3/3

